<html>
<title> - EXAMINING VULNERABILITIES OF AMERICA'S POWER SUPPLY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      EXAMINING VULNERABILITIES OF
                         AMERICA'S POWER SUPPLY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON OVERSIGHT &
                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 10, 2015

                               __________

                           Serial No. 114-37

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               ____________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
97-756PDF                      WASHINGTON : 2016                       
 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f89f8897b89b8d8b8c909d9488d69b9795d6">[email&#160;protected]</a>  
             
              
              
              
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                ----------                                

                       Subcommittee on Oversight

                 HON. BARRY LOUDERMILK, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DON BEYER, Virginia
    Wisconsin                        ALAN GRAYSON, Florida
BILL POSEY, Florida                  ZOE LOFGREN, California
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
DAN NEWHOUSE, Washington
LAMAR S. SMITH, Texas
                                -----------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEVE KNIGHT, California             ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           September 10, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barry Loudermilk, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     8

Statement by Representative Don Beyer, Ranking Minority Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................     9

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    10

Statement by Representative Alan Grayson, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    11
    Written Statement............................................    11

                               Witnesses:

Mr. Richard Lordan, Senior Technical Executive, Power Delivery & 
  Utilization Sector, Electric Power Research Institute
    Oral Statement...............................................    12
    Written Statement............................................    14

Ms. Nadya Bartol, Vice President of Industry Affairs and 
  Cybersecurity Strategist, Utilities Telecom Council
    Oral Statement...............................................    19
    Written Statement............................................    21

Dr. Daniel Baker, Distinguished Professor of Planetary & Space 
  Physics; Moog-BRE Endowed Chair of Space Sciences; Director, 
  Laboratory for Atmospheric and Space Physics, University of 
  Colorado Boulder
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. M. Granger Morgan, Hamerschlag University Professor, 
  Departments of Engineering and Public Policy and of Electrical 
  and Computer Engineering, Carnegie Mellon University
    Oral Statement...............................................    36
    Written Statement............................................    38

Discussion.......................................................    48

             Appendix I: Answers to Post-Hearing Questions

Mr. Richard Lordan, Senior Technical Executive, Power Delivery & 
  Utilization Sector, Electric Power Research Institute..........    68

Ms. Nadya Bartol, Vice President of Industry Affairs and 
  Cybersecurity Strategist, Utilities Telecom Council............    76

Dr. Daniel Baker, Distinguished Professor of Planetary & Space 
  Physics; Moog-BRE Endowed Chair of Space Sciences; Director, 
  Laboratory for Atmospheric and Space Physics, University of 
  Colorado Boulder...............................................    86

Dr. M. Granger Morgan, Hamerschlag University Professor, 
  Departments of Engineering and Public Policy and of Electrical 
  and Computer Engineering, Carnegie Mellon University...........    91

            Appendix II: Additional Material for the Record

Statement for the record titled ``Texas is Working to Protect the 
  Electrical Grid Against Natural or Man-Made Electromagnetic 
  Pulse,'' submitted by Lieutenant Colonel Allen B. West (U.S. 
  Army, Ret), President and Chief Executive Officer, National 
  Center for Policy Analysis.....................................    96

 
             EXAMINING VULNERABILITIES OF AMERICA'S POWER SUPPLY

                              ----------                              


                      THURSDAY, SEPTEMBER 10, 2015

                  House of Representatives,
                Subcommittee on Oversight &
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:02 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barry 
Loudermilk [Chairman of the Subcommittee on Oversight] 
presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Loudermilk. The Subcommittee on Oversight and 
Energy will come to order.
    Without objection, the Chair is authorized to declare 
recess of the Subcommittee at any time.
    Good morning. I would like to thank our witnesses for being 
here today. I appreciate the witnesses' patience and 
understanding as we had to postpone this hearing from July. And 
I look forward to the testimony today that will help us examine 
the vulnerabilities of America's power supply.
    Welcome to today's joint subcommittee hearing entitled 
``Examining the Vulnerabilities of America's Power Supply.'' 
Due to time constraints and in the interest of allowing our 
witnesses to be heard and their questions answered, I will 
submit my opening statement for the record and I encourage 
others to do so as well.
    [The prepared statement of Chairman Loudermilk follows:]

              Prepared Statement of Oversight Subcommittee
                       Chairman Barry Loudermilk

    Good morning. I would like to thank our witnesses for being here 
today to help us examine the vulnerabilities of America's power supply.
    The electricity infrastructure of the United States is aging, and 
the electric power industry is in the process of modernizing it with 
its transformation to the ``smart grid'' --the technology that provides 
an increased use of digital information and control technology to 
improve reliability, security, and efficiency of the electric grid.
    That process of modernization, however, introduces new 
vulnerabilities in addition to ones that have existed for over a 
century. This hearing will discuss those various threats to the 
national electric grid, including: severe weather or other natural 
events; cyber, physical, or coordinated attacks; space weather; and 
electromagnetic pulse (EMP) attacks.
    The blackout that darkened the Northeast in the summer of 2003 
opened many eyes to the vulnerability and age of our electrical system. 
In that case, a tree branch in Ohio coupled with software issues and 
human error left many in the dark for two days. In addition to natural 
events like this and Superstorm Sandy--which left millions of people 
without power, man-made physical threats exist.
    In 2013, unknown attackers coordinated an attack on a Pacific Gas & 
Electric Metcalf substation in California. Those attackers severed six 
underground fiber optic lines and fired over 100 rounds of ammunition 
at transformers. While the attack did not lead to any loss of power or 
life, it caused over $15 million in damage. The President and CEO of 
the American Public Power Association stated at a hearing last year 
that, ``shooting at substations, unfortunately, is not uncommon.''
    Just as troubling is the amount of attempted cyber-attacks to the 
nation's electric grid. An investigation completed by USA Today earlier 
this year found that the United States' power grid ``faces physical or 
online attacks approximately `once every four days.''' In addition, in 
2014, the National Security Agency (NSA) reported that it had tracked 
intrusions into industrial control systems by entities with the 
technical capability ``to take down control systems that operate U.S. 
power grids, water systems, and other critical infrastructure.'' We 
have also been examining cyber threats in the Homeland Security 
Committee, and this is an absolutely critical issue that must be taken 
seriously by Congress and the entire federal government.
    On top of these threats, we also have the potential threat of an 
electromagnetic pulse, which would disrupt or destroy electronic 
equipment after the detonation of a nuclear weapon. Geomagnetic 
disturbances can also be brought on by naturally occurring solar 
weather events, such as in 1989 when a geomagnetic disturbance caused 
millions of Canadians to lose their power for about nine hours.
    It is clear that there are many threats to our electric 
infrastructure, and we must therefore ensure that our federal systems 
are adequately protected, especially as we transition to the ``smart 
grid.'' We need to rethink how we protect our facilities from physical 
attacks, like the Metcalf incident where investigators were never even 
able to identify the criminals.
    In addition, as we have seen over the past few years, cybersecurity 
is an ever-evolving threat. The fact that we know of intrusions by 
entities with the capability to take down our control systems means 
that we must do everything in our power to be proactive rather than 
reactive in order to protect our grid and prevent such a take-down from 
happening.
    Mitigating these vulnerabilities and their potential consequences 
is ultimately essential for the safety and security of all Americans. 
Protecting our power supply is something that is crucial for day to day 
life activities and things that we take for granted--like heating and 
cooling a home or powering a business--as well as ensuring our national 
security.
    I look forward to today's hearing, where I hope to learn more about 
the various vulnerabilities of our grid as well as the extent of the 
threats that could potentially leave us in the dark.
    Thank you.

    Chairman Loudermilk. I now recognize the Ranking Member of 
the Oversight Subcommittee, the gentleman from Virginia, Mr. 
Beyer, for an opening statement.
    Mr. Beyer. Mr. Chairman, respecting your fine example, I 
will also submit mine for the record.
    [The prepared statement of Mr. Beyer follows:]

              Prepared Statement of Oversight Subcommittee
               Minority Ranking Minority Member Don Beyer

    Thank you Chairmen Loudermilk and Weber for holding this important 
hearing today.
    In September 1882 Thomas Edison flipped a switch that enabled the 
electricity generated from the Pearl Street power plant in lower 
Manhattan to power on 400 light bulbs for 82 customers living in a one-
quarter square mile radius of each other, including 52 light bulbs at 
the New York Times. The electric grid was born and blossomed quickly, 
spreading across the country and around the world. Today the U.S. power 
grid is an intricate labyrinth of 200,000 miles of transmission lines, 
thousands of generating stations and hundreds of high voltage 
transformers.
    This complex and interconnected power system fuels our national and 
global economy. It plays a key role in our national security. It 
enables the delivery of critical healthcare services. It improves our 
lifestyles in a multitude of ways, and provides emergency services that 
save lives. When the electric grid goes down today it is more than a 
passing inconvenience. The elderly and very young alike may die from a 
lack of access to critical medical services or availability of adequate 
heating or air conditioning. Police, fire and emergency response 
capabilities may be hindered. Businesses close. Grocery stores and gas 
stations may cease to open or operate. Hospitals may be unable to fully 
function effectively.
    At the same time we have witnessed more and more severe weather 
events in the past few years that have disabled the grid, knocking down 
transmission lines and utility poles, flooding critical equipment and 
leaving customers without access to this critically important service 
for days on end. Reliant on the telecommunications infrastructure to 
operate and computer control systems to function the power grid has 
also become vulnerable to malicious cyber threats. Recent physical 
attacks on electrical power stations have highlighted the need to 
harden the grid against these kinds of threats. A successful, 
coordinated cyber and physical assault against key portions of the grid 
could leave cities or regions without power for long stretches of time. 
Geomagnetic Disturbances (GMDs), producing solar flares, can also 
disable portions of the grid and interfere with global navigation and 
communication systems. Electromagnetic Pulses (EMPs) intentionally 
produced by a weapon is one of the least likely, but most serious, 
threats to the power grid since its successful use would destroy 
critical electronic components that are vital for the grid's continued 
performance and could be difficult to replace quickly.
    Protecting the power grid against all of these variables and 
potential vulnerabilities is not a problem that can be, or should be, 
faced by the utility industry alone. The government has a key role to 
play in ensuring that our shared reliance on electricity is as 
resilient as possible. The electric industry and federal government 
also need to have detailed plans for recovery operations if, or when, 
the electrical grid is degraded by natural disasters or intentionally 
disabled by malicious actors.
    How we confront these multiple vulnerabilities and emerging threats 
is not straight-forward. There is no silver bullet to eradicating these 
threats. There is no cure-all for ensuring that the electric grid will 
never go down. It will--at times--as we have seen most recently due to 
the power of natural storms and the fragility of our aging electrical 
infrastructure. Ensuring that we are prepared to recover from these 
potential events in a timely manner and able to restore power to 
critical facilities, such as hospitals, quickly demands our collective 
attention, from industry, the Administration and Congress.
    Because I believe it is critically important that we are as 
prepared as possible to effectively deal with these potential incidents 
when they occur I asked the Government Accountability Office (GAO) to 
investigate these issues in a letter I sent to GAO yesterday. I would 
welcome other Members who are interested--on both sides of the aisle--
to join me in this request. This is an important, non-partisan issue, 
and I am glad we are holding this hearing today.
    I look forward to learning more about these important issues from 
our witnesses and hearing about any recommended actions they have to 
help keep the lights on as long as possible and get them back on as 
quickly as possible should they go out--regardless of the reason why.
    I yield back.

    Chairman Loudermilk. Thank you, Mr. Beyer. I appreciate 
that.
    Now, I recognize the Chairman of the Energy Subcommittee, 
the gentleman from Texas, Mr. Weber, for an opening statement.
    Mr. Weber. Thank you. My opening statement is that I submit 
my opening statement for the record. Welcome.
    [The prepared statement of Mr. Weber follows:]

              Prepared Statement of Subcommittee on Energy
                        Chairman Randy K. Weber

    Good morning and welcome to today's joint Oversight and Energy 
Subcommittee hearing examining vulnerabilities of America's power 
supply. Today, we will hear from a broad range of witnesses on the 
existing threats to the nation's electric grid, and the impact that 
potential attacks and incidents could have on our grid reliability and 
national security.
    Our witnesses today will also provide insight into how industry and 
the federal government can work together to harden our electric grid 
against ongoing and changing threats.
    The reliability of America's power grid is one of our greatest 
economic strengths. In my home state of Texas, reliable and affordable 
power serves a population that is increasing by more than 1,000 people 
per day, and provides power to the energy intensive industries that 
drive consumption. Texas is by far the nation's largest consumer of 
electricity. Keeping the Texas power grid reliable and secure is key to 
continuing this economic growth.
    But it is common knowledge that utilities face significant and 
diverse threats to the reliability of power delivery. Our electric grid 
is vulnerable to physical threats caused by damage to existing 
infrastructure and growing cybersecurity threats as the grid is 
modernized.
    Key infrastructure such as utility substations are often left 
completely exposed, with little more than a chain-link fence protecting 
the facilities that keep the lights on across the country. Small scale 
cyber and physical attacks to our electric grid are estimated to occur 
once every four days. And in over 300 cases of significant cyber and 
physical attacks since 2011, suspects have never been identified.
    Our power grid is also at risk from geomagnetic disturbances, which 
can be caused by space weather or an Electromagnetic Pulse, commonly 
known as E-M-P, which could be generated in a nuclear attack. These 
high energy pulses could severely impact the operation of the electric 
grid and electric power systems across the country, disabling and 
damaging equipment essential to providing reliable power that could be 
nearly impossible to replace on a large scale.
    We often think of cybersecurity and other threats to the power grid 
at a macro scale, but these types of attacks can occur even at the 
local level. In 2011, the Pedernales Electric Co-op, a non-profit co-op 
that serves approximately 200,000 customers north of San Antonio, was 
struck by a cyberattack. While the attack thankfully did not disrupt 
electric reliability, it is a stark reminder that threats to the grid 
are real, and are not going away.
    Our nation's power supply cannot be protected overnight, 
particularly as utilities struggle to adapt technology to manage a 
growing number of cybersecurity threats. Cyber threats to the power 
grid will continue to evolve, particularly as more interconnected smart 
technologies are incorporated into the electric grid. As protective 
technology improves, so does the capability and creativity of those 
conducting attacks.
    While we cannot predict every method of attack, the federal 
government can and should play a role in assisting industry with 
developing new technology and security safeguards.
    Accordingly, research and development efforts at the Department of 
Energy are focused on providing industry with comprehensive tools to 
conduct internal analysis to identify and address cybersecurity 
weaknesses so that industry can take the lead in addressing these 
vulnerabilities.
    I want to thank our witnesses for testifying before the Committee 
today, and I look forward to a discussion about the threats to 
America's reliable power supply and the federal government's role in 
helping to secure our electric grid.

    Chairman Loudermilk. Thank you, Chairman Weber.
    I now recognize the Ranking Member of the Subcommittee on 
Energy, the gentleman from Florida, Mr. Grayson, for an opening 
statement.
    Mr. Grayson. Ditto.
    [The prepared statement of Mr. Grayson follows:]

              Prepared Statement of Subcommittee on Energy
                  Minority Ranking Member Alan Grayson

    Thank you, Chairman Loudermilk, and Chairman Weber, for holding 
this hearing today. Today's hearing is focused on our nation's electric 
grid, and the many threats facing it.We as a society are increasingly 
dependent on the services electricity provides, and the electric grid 
has quietly become the basis of our modern lives. However, our 
electrical system is under constant stress from severe weather, 
malicious acts, and age. The stress on the system is constantly 
increasing as we dramatically change how we want to use the grid now, 
verses what it was designed to do, when it was built.
    In 2000, the US experienced an average of 2.5 grid disruption 
events a month. Fourteen years later, in the first half of 2014, we had 
an average of 21.7 disruptions a month - a nearly nine-fold increase.
    Between 2003 and 2012, 80 percent of all outages were weather 
related and cost the US economy an inflation-adjusted annual average of 
between $18 billion to $33 billion.
    USA Today recently reported that physical and cyber attacks on the 
power grid occur about once every four days. In April of 2013, unknown 
snipers disabled 17 transformers with a .30 caliber assault rifle at 
the Pacific Gas & Electric Company's Metcalf substation outside of San 
Jose, California. The assailants fired 150 rounds and escaped 
undetected. They had cut a series of fiber-optic telecommunications 
cables prior to the attack hindering communication.
    From malware inserted in electrical components used to operate the 
power grid prior to purchase by utilities to traditional cyber attacks, 
disabling even a portion of the nation's power supply can have serious 
consequences for the health and safety of our citizens.
    Keep in mind, that the average age of a high voltage transformer in 
the United States is approximately 38 to 40 years old, with 70 percent 
of them 25 years or older. And that most high voltage transformers are 
custom built, and can take five to twenty months to design, build, 
deliver and install.
    One of our challenges is grappling with the reality that many of 
these threats to the grid are not easily predicted with current 
capabilities.
    High-impact low probability events are by definition, rare. We do 
not know when a large-scale malicious attack might happen, whether it's 
an electromagnetic pulse or a cyber attack. We have limited abilities 
to predict when a geomagnetic disturbance or extreme weather event will 
hit. And since these events rarely happen, we have little or no 
historical data to guide us.
    While we should certainly support efforts to significantly improve 
our grid security capabilities, we cannot assume that it is even 
possible to completely protect the grid from every possible risk.
    What we can do is increase our ability to estimate these risks. We 
can improve our ability to predict the impacts, even when we may not be 
able to predict the actual event. And we can take actions to improve 
our electric system's ability to withstand an event, and minimize the 
time it takes to recover from that event.
    This Committee has an important responsibility to authorize 
research that can dramatically improve the ability of the grid to 
handle whatever comes at it.
    Over the past 100 years we have incrementally created our electric 
grid, adding and subtracting equipment as the system expanded and 
became more interconnected. Our electrical system is considered one of 
the greatest engineering achievements of the 20th century by the 
National Academy of Engineering. We should be proud of this 
accomplishment.
    I look forward to working with my colleagues to identify and fund 
the research efforts needed to make sure our electrical system remains 
a great achievement.
    I thank each of our witnesses for being here today, and I look 
forward to hearing what each of you has to say.
    Thank you, Mr. Chairman, and I yield back my remaining time.

    Chairman Loudermilk. Thank you, Mr. Grayson.
    And is Ms. Johnson not here? Okay.
    At this time I would like to introduce our witnesses. You 
don't have the option, okay, so--we wouldn't get anywhere if 
you guys follow suit, so we did this so you would have plenty 
of time.
    Our first witness is Richard Lordan. He is the Senior 
Technical Executive of the Power Delivery & Utilization Sector 
at the Electric Power Research Institute.
    Our next witness is Ms. Nadya Bartol--is the Vice President 
of Industry Affairs and Cybersecurity Strategist at Utilities 
Telecom Council where she works on UTC cybersecurity 
initiatives worldwide.
    Our next witness is Dr. Daniel Baker. He is the Director of 
the Laboratory for Atmospheric and Space Physics at the 
University of Colorado Boulder. He is a distinguished professor 
of planetary and space physics and the Moog-BRE. Is that 
proper? Okay. Endowed Chair of Space Sciences at the 
university.
    And our final witness is Dr. M. Granger Morgan. He is the 
Hamerschlag University Professor in the Department of 
Engineering and Public Policy at Carnegie Mellon University 
where he is also professor in the Department of Electrical and 
Computer Engineering.
    Thank you all for being here and I now recognize Mr. Lordan 
for five minutes to present his testimony.

        MR. RICHARD LORDAN, SENIOR TECHNICAL EXECUTIVE,

              POWER DELIVERY & UTILIZATION SECTOR,

               ELECTRIC POWER RESEARCH INSTITUTE

    Mr. Lordan. Good morning, Chairman Weber and Mr. 
Loudermilk, Vice Chairman Knight and Johnson, Ranking Members 
Mr. Beyer, and members of the subcommittees. I am Richard 
Lordan, Senior Technical Executive at EPRI Transmission. I'm 
pleased to testify today on vulnerabilities of the electric 
grid.
    For those of you who don't know, EPRI is a 501(c)(3) 
nonprofit organization that conducts research and development 
relating to generation, delivery, and use of electricity for 
the benefit of the public. EPRI's members represent 
approximately 90 percent of the electricity generated and 
delivered in the United States. International participation 
extends to over 30 countries.
    So my testimony is going to be kind of in two parts. One is 
on the general vulnerability of the grid and then I'm going to 
bore down on one threat which is electromagnetic pulse.
    When I talk about the vulnerability of the grid, I'm really 
talking about vulnerability to high-impact, low-frequency 
events. They called them HILF events, and they are rare but 
they have a high impact. And some of these things include 
natural events like severe weather, earthquakes, geomagnetic 
disturbances, and also manmade threats like physical security 
and EMP, which I'm going to talk about today.
    So you asked about the vulnerability of the grid, and there 
are inherent vulnerabilities in the grid to these threats 
because the severity is generally higher than the design basis 
for the system. To completely eliminate these vulnerabilities 
would be cost prohibitive. It would defeat the industry's 
objective of providing reliable, safe, environmentally 
acceptable, and affordable power.
    EPRI supports a prudent approach where you assess the 
vulnerabilities from all of these threats, calculate the impact 
should these events occur, and develop cost-effective 
countermeasures that improve transmission system resiliency.
    I'm now going to talk about EMP with a comparison to 
geomagnetic disturbance. EMP and GMD are often conflated but 
there are important differences that I'll highlight. Dr. Baker 
could probably add some more. EMP, electromagnetic pulse, 
refers to a very intense pulse of electromagnetic energy 
typically caused by the detonation of a nuclear device or other 
high-energy explosive device.
    There are three stages of an EMP and I'm pretty sure you 
know what they are but I'll do it again: E1, E2, and E3. The E1 
is characterized by an incredibly fast rise time high-energy 
pulse. It has the ability to destroy electronics in the power 
system, and it affects itself by the electric field itself or 
by coupling to wires that are attached to these devices.
    The E2 is similar to lightning and consequently can result 
in damage to electronics and potential flashover of 
distribution class insulation.
    E3 is characterized by a longer duration, low-frequency 
content similar to GMD, and that's why people talk about EMP 
and GMD together. But the E3 part of EMP is much shorter than a 
GMD, and therefore, it will not have the consequence of 
transformer overheating and failure. It does have the ability 
to saturate transformers and transformers will create 
harmonics. They'll consume reactive power and there may be 
voltage collapse on the system.
    With regard to risk management of these threats, so we 
talked about EMP and vulnerability. EPRI is leading an effort 
with the industry to characterize each of these threats, 
whether it's EMP, GMD, physical security or cyber, characterize 
the threat, then identify the key component--key components in 
the system and understand the vulnerability of those 
components, then assess the impact should this event happen. 
What's the effect on the system and what's the societal cost? 
Then we develop and assess mitigation strategies that will buy 
down that risk.
    And lastly, after we've done all the different threats one 
by one, we support looking sideways and seeing, hey, are there 
any mitigation strategies that also support multiple threat 
that would improve your business case by increasing 
transmission resiliency?
    So thank you again for inviting EPRI here today and I look 
forward to answering your questions.
    [The prepared statement of Mr. Lordan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Loudermilk. I now recognize Ms. Bartol for five 
minutes to present her testimony.

                 TESTIMONY OF MS. NADYA BARTOL,

               VICE PRESIDENT OF INDUSTRY AFFAIRS

                 AND CYBERSECURITY STRATEGIST,

                   UTILITIES TELECOM COUNCIL

    Ms. Bartol. Good morning, Mr. Chairman, and Members of the 
Subcommittee. My name is Nadya Bartol. I'm the Vice President 
of Industry Affairs and Cybersecurity Strategist at the 
Utilities Telecom Council. Thank you for the opportunity to 
testify today about the vulnerabilities of America's power 
supply.
    UTC is a global trade association for the communications 
and information technology interest of electric, gas, and water 
utilities; pipeline companies; and other critical 
infrastructure industries.
    Cybersecurity is a serious concern with respect to great 
vulnerability. It is a complex challenge that requires 
comprehensive process-driven solutions. It is and will remain a 
risk we must actively manage as long as society wants to have 
the conveniences of a modern world increasingly underpinned and 
enabled by smart interconnected technologies.
    Some of the variables in the complex cybersecurity grid 
vulnerability landscape are outside of our span of control. 
Although there are a number of variables within our control, 
there's no easy way to fix them either, as mitigating those 
variables to an acceptable level may take a long time.
    With respect to what is outside of our span of control, the 
grid is vulnerable to a variety of threats, including 
individual hackers, activist groups, cyber criminals, and 
nation states.
    With respect to what is within our span of control, those 
vulnerabilities are related to the shortage of qualified 
cybersecurity workforce, age of legacy infrastructure, lack of 
legal framework for information sharing, and evolving practices 
for assuring security in supplier products and services.
    The 2015 Global Information Security Workforce Study, an 
international survey of nearly 14,000 information security 
professionals published by ISC2, estimates the shortfall in the 
global information security workforce to reach 1.5 million by 
2020. This problem is exacerbated in the energy space because 
we have two different sets of systems: systems that run the 
grid, referred to as operational technology (OT) and business 
systems that we refer to as information technology (IT). These 
two sets of systems command a different set of priorities that 
are served by individuals with different backgrounds, different 
vocabularies, and different goals and objectives.
    We need to educate and train more people with a skill set 
blended across those two types of systems, IT and OT, in order 
to make a noticeable difference. This challenge impacts the 
energy utilities, numerous vendors that supply systems for the 
grid, as well as the integrators who design and integrate 
larger, more complex systems for utilities. The deficit of 
cybersecurity workforce permeates all levels of the energy 
utility organization, and the same is true for the entire 
energy utility ICS and ICT supply chain.
    The technology of the grid is in itself a cybersecurity 
concern. The grid is based on layers that have accumulated over 
time, and the legacy structure was not designed to be secured 
because security was not a concern when that infrastructure was 
implemented. And utilities have been utilizing a variety of 
technologies, methods, and techniques to help manage and 
mitigate some legacy infrastructure's vulnerabilities. However, 
this is an ongoing concern, and acquiring and implementing such 
technologies, modifying network architectures, or replacing 
legacy infrastructure takes time and resources.
    The energy sector suffers from inconsistent threat 
information throughout the sector. Progress has been made but 
we still need a legal framework for information sharing that 
would remove the barriers that remain. Building robust systems 
that can be resilient in the face of cybersecurity threats 
requires considering security from inception. Utilities rely on 
vendors for systems design, development, implementation, and 
maintenance and are working on their approaches to productively 
communicate their assurance needs and then monitor the 
underperformance against those.
    Recently published standards and best practices provide 
requirements, methods, and techniques that help address this 
challenge. This includes NIST Cybersecurity Framework which is 
broadly used in the energy space.
    Cybersecurity is a complex challenge that cannot be solved 
overnight or permanently. It does not lend itself to a cookbook 
of solutions, nor can we envision every possible scenario to 
mitigate. We're dealing with an asymmetric threat. However, we 
can act to reduce the cyber-related vulnerabilities of the 
grid. These actions include increasing supply of cybersecurity 
workforce that understands both IT and OT contexts, financially 
enable utilities to upgrade or phase out their legacy 
infrastructures, enacting information-sharing legislation that 
removes current barriers, and supporting industry-based 
standardization and NIST framework implementation to help 
integrate security considerations into current and future 
technologies.
    I look forward to further dialogue.
    [The prepared statement of Ms. Bartol follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Loudermilk. Thank you, Ms. Bartol.
    I now recognize Dr. Baker for five minutes to present his 
testimony.

                 TESTIMONY OF DR. DANIEL BAKER,

                   DISTINGUISHED PROFESSOR OF

                   PLANETARY & SPACE PHYSICS;

           MOOG-BRE ENDOWED CHAIR OF SPACE SCIENCES;

              DIRECTOR, LABORATORY FOR ATMOSPHERIC

                       AND SPACE PHYSICS,

                 UNIVERSITY OF COLORADO BOULDER

    Dr. Baker. Thank you, Mr. Chairman.
    Extreme space weather events pose a threat to all forms of 
modern high technology, particularly the backbone provided by 
the electric power grid. The occurrence of severe space weather 
impacting our nation's infrastructure is not a question of 
``if'' but ``when.'' My group studied a powerful solar storm 
that occurred just three years ago on the 23rd of July 2012. 
This solar eruption produced a coronal mass ejection that moved 
from the sun's to the distance of Earth orbit in only about 15 
hours. This is among the very fastest-moving solar blasts ever 
witnessed in the space age. It was a ferocious disturbance that 
fortunately was directed somewhat away from Earth. We realized 
that a direct hit by such an extreme coronal mass ejection 
would cause widespread power blackouts, disabling everything 
that uses electricity.
    According to a 2009 study from the U.S. National Academies, 
the total economic impact from an event of this sort could 
exceed $2 trillion or 20 times greater than the cost of 
Hurricane Katrina. Multi-ton power grid transformers disabled 
by such a storm could take years to repair or replace.
    The current capability of our technological society to 
predict space weather is primitive. Through programs supported 
by the National Science Foundation, NASA, NOAA, we observe the 
sun, and we can see the general properties of the expansion of 
the solar atmosphere and powerful solar storms heading in our 
general direction. However, the measurements at the first 
Lagrangian point provide only about 4five minutes of warning at 
best as to what will impact Earth. This is insufficient time 
for implementing most mitigation strategies.
    I spent two sobering days on the 20th and 21st of July at 
the 6th Electric Infrastructure Security Summit here on Capitol 
Hill. Representatives from over 20 world nations attended the 
EIS Summit. CEOs from key electric power utilities and leaders 
from the U.S. military and several federal agencies spent time 
grappling with the immense challenges that would result if 
nuclear EMP or geomagnetic disturbances were to take down the 
North American power grid. In the EIS world, such events are 
termed ``Black Sky'' days. The 100-plus EIS delegates 
acknowledged that the collapse of the power system would be 
devastating, and that industry, government, and academia must 
all work together to the greatest degree possible to minimize 
the impact when such a Black Sky day occurs.
    In space weather, as in many things, forewarned is 
forearmed. Many studies have shown that improved prediction of 
space weather would have important economic impacts on our 
society in the same way that improved terrestrial weather 
forecasts have greatly improved our economic wellbeing and the 
quality of daily lives.
    Is our problem of improving space weather forecasting 
hopeless? Absolutely not. But it will require a substantially 
increased and dedicated government research program. 
Government-funded programs must be chosen to advance our 
civilization, our strategic importance in the world. In fact, 
efforts that would result in sufficient space weather 
prediction capability would be among our highest national--
should be among our highest national priorities. Unfortunately, 
today's federal investments and policies are not aligned with 
this set of space weather needs.
    The U.S. National Academies published a Decadal Survey in 
Solar and Space Physics in 2012. I was privileged to chair that 
activity. The Decadal Survey established the priorities for 
research relevant for space weather and basic research for NASA 
and NSF in the years 2013 to 2022. However, to date, NASA has 
not requested, nor has Congress funded, any of the significant 
initiatives recommended by the Decadal Survey.
    The Heliophysics Division of NASA, which has the main 
responsibility for the research required to improve space 
weather predictions, is NASA's smallest science division. NSF 
space weather activities are only a small part of the 
geosciences division with many high priorities for other 
research areas. NOAA has the responsibility for making the 
actual space weather forecasts through the Boulder space-
based--Space Weather Prediction Center, but these forecasts can 
only be based upon larger research efforts supported by the NSF 
and NASA.
    A very substantial program was envisioned in the Decadal 
Survey that would build on the--a true operational 24/7 
national space weather program. This would be a large 
investment but is essential for our nation's future. A key 
activity now underway is--by the federal agencies to address 
the Federal Space Weather Framework, as identified by the 
acronym SWORM with funding appropriately above the Decadal 
minimum level, the Decadal plan and the SWORM implementation 
plan could yield the required predictions in sufficient time.
    The existential threat to our society represented by severe 
space weather events, especially to the national power grid, 
demand a similar national commitment even in these times of 
fiscal constraint. The nation should issue a challenge to the 
space research community to provide the predictive capability 
for space weather sufficient to make our economy more resilient 
and to reduce to an acceptable level our national 
vulnerabilities. The nation should recognize that this is a 
pressing challenge and that substantial resources will be 
required. In return, the space research community must give its 
common pledge that it will deliver what the nation requires. I 
would respectfully suggest that the time for budgetary and 
policy action is now.
    Thank you very much.
    [The prepared statement of Dr. Baker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Loudermilk. Thank you, Dr. Baker.
    I now recognize Dr. Morgan for five minutes to present his 
testimony.

              TESTIMONY OF DR. M. GRANGER MORGAN,

               HAMERSCHLAG UNIVERSITY PROFESSOR,

                 DEPARTMENTS OF ENGINEERING AND

                PUBLIC POLICY AND OF ELECTRICAL

                   AND COMPUTER ENGINEERING,

                   CARNEGIE MELLON UNIVERSITY

    Dr. Morgan. Good morning. And thanks very much to Chairman 
Smith, Loudermilk, and Weber, and Ranking Members Johnson, 
Beyer, and Grayson for the opportunity to testify today.
    As you heard, my name is Granger Morgan. I'm a professor at 
Carnegie Mellon, where I work on issues in engineering and 
public policy, including issues in the power system, often with 
the National Academy of Sciences, of which I'm a member.
    Unlike food and water, none of us consume electricity 
directly. Rather, we consume the services that electricity 
makes possible, and those services have become ever more 
critical to the safe, effective, and productive functioning of 
our lives as individuals and to our society and hence also to 
our national security.
    Today, I'll talk about three things: 1) Strategies to avoid 
physical disruption of the power system; 2) Strategies to speed 
the process of putting the system back together after physical 
disruption; and 3) Strategies to assume the continued provision 
of critical social services when grid electricity is not 
available.
    Because the power system is spread out across the 
landscape, it's inherently vulnerable to both natural and 
intentional physical damage. In addition to space weather, 
natural hazards include wildfires, tornadoes, floods, 
earthquakes, tsunamis, hurricanes, and ice storms.
    We all know about the devastation that Hurricanes Sandy and 
Katrina caused to the power system. Ice storms can be equally 
devastating. The 1998 ice storm in Quebec and Ontario is a 
vivid illustration of the power system's vulnerability to 
natural hazards. It collapsed miles of high-voltage power lines 
blacking out over 2-1/2 million customers in Canada and the 
United States, caused damages of over $2-1/2 billion, involved 
28 deaths in Canada and 17 in the United States, and left some 
people without power in the dead of winter for many weeks.
    Of course, we can't avoid hurricanes and ice storms but we 
can make the high-voltage power system much more resilient. 
Twenty-five years ago, a report by the Congressional Office of 
Technology Assessment noted that the power system is vulnerable 
to attackers using ``just high-powered rifles.'' A terrorist 
organization that wanted to cause a massive disruption to the 
U.S. power system could order rifles and armor-piercing bullets 
on the internet, place sharpshooters in the back of station 
wagons like the 2002 Washington snipers, and from a distance 
put holes in carefully selected sets of critical high-voltage 
power transformers. The 2013 rifle attack on the 500 kV 
substation in Congresswoman Lofgren's district vividly 
illustrates the risk.
    In a National Academy report I chaired on terrorism and the 
power system, we recommended replacing chain-link fences that 
surrounded many large substations with robust and opaque 
barriers, as well as a variety of other steps to limit access, 
increase security, and to harden the system. Progress has been 
made, but more is needed.
    Our Academy report also recommended that the Department of 
Homeland Security and the Department of Energy develop a 
stockpile of emergency replacement transformers, an idea first 
studied years ago by EPRI. Between 2012 and 2014, DHS 
demonstrated this idea, but there's an urgent need to move 
beyond demonstration to implement a stockpile.
    Earlier this month, Paul Parfomak at CRS prepared an 
excellent report on power transformers and I urge the Committee 
to give his comprehensive summary a careful reading.
    The power industry is well organized to deal with damage 
from a range of normal disasters. However, there's a need to 
better address recovery from larger events. In my written 
testimony I've elaborated on options and on efforts by several 
groups to reduce vulnerabilities.
    Equally important, the nation should take steps to assure 
that critical social services can continue to operate when the 
power system goes down, whatever the cause. Key strategies 
include: LED traffic lights with solar cell and battery backup 
so that traffic doesn't snarl and block emergency vehicles in 
key transportation corridors; more systematic and reliable use 
of backup generators; cell phone and other communication 
systems that will remain intact and continue to operate not 
just for hours but for days; and greater use of smart meters 
and microgrids to allow local islands of power to continue to 
support key social services.
    I've run two meetings at the National Academy on power 
system resilience, the more recent under the auspices of the 
Resilient America Roundtable that I chair. Web addresses for 
the video of those meetings are provided in my written 
testimony.
    Thanks very much for your attention.
    [The prepared statement of Dr. Morgan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Loudermilk. First of all, let me thank the 
witnesses for their testimony. This is a very, very important 
issue to both of these subcommittees.
    And Members are reminded that the committee rules limit 
questioning to five minutes, and the Chair recognizes himself 
for the first five minutes.
    Ms. Bartol, I want to focus on you because I spent 30 years 
in the IT industry prior to coming to Congress, and as part of 
that, I actually worked with a lot of small utilities, 
municipal-owned utilities in automating a lot of their SCADA 
systems, providing fiberoptic connectivity and allowing them to 
be more automated in the control of substations, et cetera.
    You had mentioned supply chain as part of your testimony, 
which is one of the areas of the concern with me. And I think 
you also mentioned a standardization. Is there any standard as 
far as configuration, what infrastructure components for a 
network looking at the cybersecurity side gateways, routers, 
security devices? Do you know, is there an industry standard or 
an accepted product list that we know that if a utility 
implements this type of product or this type of configuration, 
then it's approved, it would be more likely to be secure or 
that something that's lacking? And what's your comment as far 
as is what we need in standardization?
    Ms. Bartol. I don't believe there's a list as you're 
describing, and it really--what's needed depends on each 
individual utility's configuration and architecture. There are 
standards that provide a set of processes and so to say rules 
that help organizations think through how to do this well, to 
help them think through putting together processes and 
relationships with suppliers that are more robust than 
otherwise. And those--there's--in this document--there's an 
international ISO document specifically just for security and 
supply relationships. There's an IEC document for control 
systems. So there's a number of standards. They tend to look at 
the process more than specific configuration because it all 
depends on individual----
    Chairman Loudermilk. Right. Is there a vulnerability there? 
And I'm coming from the equipment side because I know many of 
the especially small utilities will build the SCADA systems 
where they can control substations and different elements 
within that EMC or within that municipality. Then they'll 
connect it to the internet so their technicians can respond 
remotely without coming in.
    We have seen that that's a huge vulnerability. When I was 
in the military, we had an approved products list that have 
been tested that says if you're going to do this--which that 
are going to happen, you know, given that's going to happen--if 
you use this product with this configuration, then you're going 
to more likely be secured, but I know that there's numbers of 
small utilities out there that can easily be--I know they are 
very vulnerable the nation.
    Would a standardized equipment list that has been tested--
because we also know that a lot of these guys go in and they 
will buy their equipment from eBay or wherever they can get it 
cheaper and I know at one time some foreign-made hardware is 
actually encoded in the firmware with holes, backdoors to allow 
people to get in. Is that something that you feel is needed? 
And also, I'd like Dr. Morgan to answer--I see that you're 
trying to respond.
    Ms. Bartol, would you comment on that? Is that something 
that you feel is something that we should look at?
    Ms. Bartol. A list of approved tested equipment would be 
tremendously helpful. My only reservation here is that, once 
you put a list in stone, if it's hard to get on it, then it 
would stifle innovation. So it can be done, it should be done, 
it needs to be done carefully, and there are several groups 
trying to work on this kind of a concept right now.
    Chairman Loudermilk. Thank you. Dr. Morgan?
    Dr. Morgan. Well, on the cyber issue, I mean your comment 
about interconnecting to the internet of course was critical. 
You might think in terms of not so much of specific equipment 
but in terms of architectures or system designs because that's 
the big issue. I mean if I do silly things like have wireless 
systems in substations that somebody from the outside can hack 
or if I have an internet connection for my SCADA, then I'm just 
sort of asking for problems.
    I might say one other thing on the cyber issue, and that is 
I know how to really cause a lot of disruption and 
inconvenience with cyber attacks. There haven't actually been 
any successful ones that I'm aware of, but I don't know how to 
cause large-spread physical damage.
    In contrast to the sort of thing that Dr. Baker was talking 
about or the sort of physical events that I was describing, 
which could, you know, if we got caught without appropriate 
preparation, could result in disruptions that came--that lasted 
for months or maybe longer----
    Chairman Loudermilk. Right.
    Dr. Morgan. --as opposed to, you know, days or weeks, which 
a cyber attack clearly could cause.
    Chairman Loudermilk. Yeah. Thank you. One last question, 
Ms. Bartol. You talked about legacy systems, and I've recently 
read that there's a physical or online attack once every four 
days, and I assume that is accurate. But when we are talking 
about going from a legacy system, which really what we're doing 
now is we're putting new technology on top--layering on top of 
the legacy system. When you're talking about going to a legacy 
system, I'm assuming you're talking about a smart grid type 
system. And part of that is the smart meters. Is there a 
vulnerability of having smart meters at home and what type of 
information are we gathering from that?
    Ms. Bartol. To my knowledge, the information gathered from 
the smart meters is information about electricity usage. 
Nothing that qualifies as personal information is gathered. The 
vulnerability lies in the fact that this is smart technology, 
this is IP internet protocol-accessible technology and lots of 
access points, a lot more access points than before. So the 
Swiss cheese is bigger and you have more opportunity to come 
in. That's the vulnerability really.
    Chairman Loudermilk. Okay. Thank you.
    And I apologize to the Committee; I exceeded my time. I now 
recognize the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    And thank all of you very much for coming and talking with 
us.
    Dr. Baker, in talking about severe space weather events and 
black sky days, number one, how frequent are these? Are these 
something that we can see once in our lifetime or once in 200 
years or once every five years? Is it realistic to think that 
we can extend the warning time from the 45 minutes at Lagrange 
1 to something much longer than that? And then as dramatic as 
these are, are there really mitigation efforts we can take that 
will make a difference?
    And by the way, are they limited to solar events or are 
there other extreme space events that we should be concerned 
about?
    Dr. Baker. With respect to the latter, there could be some 
other extreme events, but the most probable is really a solar-
driven event of the sort we're talking about. How frequently 
these occur is the subject of continuing investigation, but the 
largest of these events are probably like equivalent of a 1-in-
100-year kind of flood or something like that. But we are 
learning more about the sun all the time and recognizing that 
these could be occurring more on the time scale of every decade 
or two, every solar cycle.
    The--I--the other part of your question I guess----
    Mr. Beyer. Extending the warning period----
    Dr. Baker. Extending the warning period----
    Mr. Beyer. --the 4five minutes we have now.
    Dr. Baker. Yes, that's one of the key things that is under 
research right now. By looking at the sun, we can see that 
coronal mass ejections are being emitted from the sun. This can 
give us perhaps warning of 12 to 14 hours, something like that. 
If we knew what the conditions inside of that material that was 
expelled from the sun were, whether that was going to be 
extremely harmful or relatively benign, has largely to do with 
the interplanetary magnetic field. If we could do that, then we 
could give perhaps eight to ten hours of warning. That would be 
extremely beneficial for many who are trying to prepare 
themselves for the largest of these events that are coming.
    Mr. Beyer. All right. Thank you, Dr. Baker.
    And Ms. Bartol, you talked about the need for information-
sharing legislation. Can I take it from that that information-
sharing right now is prohibited by state or federal law? And 
are you aware of any initiatives or any proposals right now in 
play to make that information-sharing legal?
    Ms. Bartol. It's not prohibited but it is difficult due to 
various unclarities and restrictions that do exist. We--you 
know, the industry appreciates two bills passed by the House 
before summer, and we hope that the Senate will pass the 
information-sharing bill. It's about giving liability 
protections to organizations that need to share and it's mostly 
about the threat indicators. There's--it sort of made of data 
that comes in and you put in your system. That's what's being--
--
    Mr. Beyer. I know all of us on the committee would love to 
pursue that in a constructive way.
    And, Dr. Morgan, you talked about the ice storms. You lead 
with that. As long as I've been paying attention, they've been 
bringing down power lines throughout the Northeast and Canada. 
Is there new engineering out there to make the overhead power 
lines less susceptible? They're burying all the power lines in 
new projects around Virginia, for example.
    Dr. Morgan. Yeah, they're burying lower-voltage power 
lines. You're not likely to want to bury 500 and 765 kV 
transmission lines or the DC (direct current) lines that come 
down from La Grande in Quebec. But you can do things like build 
more robust towers. I mean one of the problems in the Quebec 
example that I gave was that there was a lot of collapsing of 
towers, and actually California has passed legislation that 
says that every so many towers you've got to put a robust tower 
that can--that won't collapse. I mean it's much cheaper to 
build towers that are just guide and held up by the wires but 
then you can get a domino collapse.
    So there are things like that you can do. They cost a bit 
more and you have to find regulatory strategies to pay for it, 
but the California example is one case where it's been done.
    Mr. Beyer. Great. Thank you.
    And Mr. Lordan, it's fascinating with the E1, E2, E3 
questions. On GMD and time to respond, how best do we expand 
that time to respond? What--on the E1, E2, E3--are these only 
coming from nuclear weapons? And is there something we can do 
on arms control and nonproliferation to guard against that?
    Mr. Lordan. So let's do E1, E2, E3 warning first. 
Typically--the EMP is a nuclear device. Typically, a nuclear 
device or some high-powered device, the fast rise time for the 
E1 is the most important part and a nuclear device is the way 
to go for that. We assume no warning for that, and so we've--we 
believe operational strategies are inapplicable for EMP, a 
nuclear attack. Are there things that DOD can do to give us 
warning, to mitigate attack? Certainly, but that's outside of 
my purview.
    And if I could go on to GMD----
    Mr. Beyer. Yeah, please.
    Mr. Lordan. --for warning. Okay, so the average storm is 
about four days. Dr. Baker says there's fast ones. So we can 
observe the sun and we can tell when it's coming, and there's 
things that you can do in that four day period even though you 
know that it's kind of vague but you're not sure exactly how 
big and you're pretty sure it's going to hit you but you're not 
exactly sure. There's things you can do. You can defer 
maintenance on your transmission line so you have more 
capacity, you can back off generation so that you have a little 
bit of room to add voltage support. So there's things like that 
you can do.
    And we are doing studies with NASA where they're trying to 
improve the accuracy of the observations of the sun in the 
first four days before it reaches DSCOVR satellite, yes.
    Mr. Beyer. Thank you. Thank you, Mr. Chairman.
    Chairman Loudermilk. Thank you.
    The Chair now recognizes the Chairman of the Energy 
Subcommittee, the gentleman from Texas, Mr. Weber.
    Mr. Weber. Thank you.
    Mr. Lordan, a friend of mine likes to say that nothing is 
faster than the speed of light, and if you don't believe that, 
try opening the refrigerator door before the light comes on.
    An NNEMP, a nonnuclear electromagnetic pulse device, now 
you talked about the sun flare. I was astounded by that and did 
a little math. The sun is 93 million miles from Earth or 94.5 
at its aphelion. So at 186,000 miles an hour, how long do you 
anticipate it would take an event like the solar flare to hit 
us?
    Mr. Lordan. The storm is fast but not as fast as the speed 
of light. It travels about a million miles an hour, the typical 
one. And there's faster ones. So 93 million miles will get you 
there in about 96 hours is 4 days, so that's an easy way of 
doing it. And then the Lagrange 1 point where Dr. Baker 
referred, we have a satellite there. There's an A satellite, 
there's a DSCOVR satellite, and then when it reaches that 
point, you get a lot better information, but unfortunately, the 
gravitational Lagrange point is only one hour away from Earth. 
There's only--one million miles away.
    Mr. Weber. Okay. And my study, I know that the NNEMP, 
nuclear electromagnetic pulse weapons, there's a lot of 
discussion. There's nonnuclear electromagnetic pulse weapons, 
and they talk about capacitor banks.
    Mr. Lordan. Um-hum.
    Mr. Weber. So I owned an air-conditioning company for 34 
years and we're used to a lot of power, you know, calculations 
on a house being built, the size of a wire and all that kind of 
stuff needed, so I pay close attention to it. And of course 
being from Texas we have the ERCOT, Electric Reliability 
Council of Texas. We have our own grid, about 85 percent of the 
State. So we pay real close attention to that.
    But from the nonnuclear weapon standpoint, the capacitor 
banks that could go on the end of a missile, are you familiar 
with those?
    Mr. Lordan. Yes, sir. And there are smaller devices that 
are more accessible to more parties so we're trying to figure 
out the risk spectrum, the folks who can supply high-altitude 
nuclear device and have the missile capacity to get it here. 
It's small--
    Mr. Weber. Okay.
    Mr. Lordan. --and the effect is high. These intentional 
electromagnetic interference, which is what you're referring 
to, these are more accessible to more folks. The thing about 
those devices is that they provide a local impact, and 
therefore, you'd need to have a coordinated attack to make a 
big impact. And so I think this group is talking more about 
high impact--
    Mr. Weber. Right, and we're going to discuss that grid. I 
think it was Dr. Morgan who might have said you wouldn't want 
to put high-voltage underground. And one way to harden the grid 
would be to have most of your utilities underground. But when 
you say small, back to the NNEMPs, define small, 4 feet, 6 
feet, 2 feet.
    Mr. Lordan. I think--I'm going to say--I'm not sure 
exactly. I think I see things in a bread truck is what I 
usually see the picture of--
    Mr. Weber. Okay.
    Mr. Lordan. --but I think they can be they can be smaller 
than that.
    Mr. Weber. Okay. So let's go on to what I think Dr. Morgan 
said. You wouldn't want to put high-voltage wire underneath the 
ground, and a lot of utilities in a lot of States require--a 
lot of subdivisions require that utilities come into the 
neighborhood now underground, whether it's--you know, of course 
obviously water, sewer, electricity, phone, that kind of stuff, 
as opposed to the aerial overhead. How high does voltage have 
to be before you think you wouldn't want to put it underground?
    Dr. Morgan. Well, it's a matter of cost. I mean you can put 
a 500 kV line underground. I mean we run 500 kV lines across 
things like, you know, oceans with--
    Mr. Weber. Sure.
    Dr. Morgan. --cables but it's really expensive, and so--
    Mr. Weber. So you're not talking about from an engineering 
perspective----
    Dr. Morgan. I'm saying--I'm not saying you can't do it--
    Mr. Weber. --just the dollar amount?
    Dr. Morgan. --I'm saying it's excluded.
    Mr. Weber. Right.
    Dr. Morgan. On the issue of EMP, he's right. I could take 
out a substation with a small homemade EMP device. And I could 
also take--
    Mr. Weber. Now, let's define small. Is that three feet, two 
feet?
    Dr. Morgan. Something that would fit in the back of a 
pickup truck.
    Mr. Weber. Okay, so a truck bomb?
    Dr. Morgan. Well, yeah, I mean if you want to think of it 
that way.
    Mr. Weber. Okay.
    Dr. Morgan. On the other hand, you know, I could also take 
it out with a rifle, and so it's not clear to me that EMP--
    Mr. Weber. Okay.
    Dr. Morgan. --is the sensible--
    Mr. Weber. Well, let's go there. You talked about--one of 
you talked about the snipers from 2002.
    Dr. Morgan. Yeah.
    Mr. Weber. So transformer is a set of coils, and again we 
dealt with transformers, high-voltage, low-voltage in the air-
conditioning business with oil in it, a light oil----
    Dr. Morgan. Right, in a big steel box.
    Mr. Weber. That's right. Why don't they just make the steel 
thicker and less----
    Dr. Morgan. Well, that's one of the things that's being 
talked about. Another thing, of course, that's being talked 
about is--I mean, you know, you can buy armor-piercing bullets 
on the internet, and so it's--there is--you really have to make 
it quite a bit thicker. But the other thing I can do is things 
like simply making it hard to see from the outside.
    Mr. Weber. Sure. Well----
    Dr. Morgan. I mean at the moment--
    Mr. Weber. You betcha.
    Dr. Morgan. --it's behind a chain-link fence.
    Mr. Weber. And, Mr. Lordan, you wanted to weigh in.
    Mr. Lordan. Just real quick. I mean you can make the tank 
thicker but the radiator where you're trying to dispel the heat 
is--
    Mr. Weber. You've got to have a way to get the heat out. 
Yeah.
    Mr. Lordan. And the attack in 2013 that you alluded to, 
they shot the tank a few times but what they really shot was 
the radiators--
    Mr. Weber. Well, a really good sniper can take the 
insulators out and bring the wires off down in contact with 
metal structure so----
    Dr. Morgan. Yeah, but that one's easier to fix. It's if I 
actually fry the transmitter--
    Mr. Weber. Oh, absolutely. You know, let a squirrel get 
across a couple of those things, it doesn't do the squirrel a 
lot of good and I've seen quite a number of transformers blown. 
Okay. Well, thank you. I yield.
    Dr. Morgan. May I say one last thing, and that is if I'm a 
terrorist and I have a nuclear weapon, it seems most unlikely 
I'm going to use it to do an EMP. You know, unfortunately, it's 
true. I'm going to put it in a major metropolitan area.
    Yeah.
    Mr. Weber. We had that discussion in my office this morning 
with my staffer in this area because I said, look, you're going 
to want to have death and destruction that shows up on TV. 
You're going to put it in a football stadium, for example.
    Dr. Morgan. Exactly. And EMP at that point is the last of 
our worries.
    Mr. Weber. Yeah, good point. Thank you. I yield back.
    Chairman Loudermilk. The Chair now recognizes Mr. Grayson, 
who is the Ranking Member on the Energy Subcommittee.
    Mr. Grayson. All right. I'm going to be asking Dr. Morgan a 
couple of questions based upon what would have been able to 
avoid major blackouts in the past, what kind of research and 
other efforts we should be undertaking now to avoid things that 
have already happened. Here's an interesting list. These are 
the 12 largest blackouts in history and what caused them. The 
first one I lived through, it was in New York in 1965. It was 
caused by the tripping of a 230 kilovolt transmission line and 
a domino effect that followed that; 1978, Thailand, the 
generators failed; 1989, Canada, a geomagnetic storm; 1999 in 
Brazil, a lightening struck an electricity substation near 
Itaipu; 2001, India, failure of a substation; 2003, in the 
United States and Canada there was a high-voltage power line 
that brushed against some overgrown trees; 2003, Italy, two 
internal lines overloaded; 2005, Indonesia, failure of a 500 
kilovolt transmission line; 2006 in Europe, a power company 
switched off a power line in order to let a cruise ship pass; 
2008, China, winter storms; 2009, Brazil, the Itaipu generator 
failed for a while; 2012, India, the largest in history, 670 
million people lost electricity and three power grids collapsed 
because circuit breakers tripped.
    So going through this list, clearly most of them were 
internal to the grid. Most of them were not caused by external 
events. There's not any instance in that list of cybersecurity 
issue, there's not any instance in that list of an 
electromagnetic pulse, not any instance of a terrorist attack, 
not any instance of any squirrel attack, and only one instance 
of space weather. So I think this can help us to focus what 
really would matter in this case, which is how do you avoid 
blackouts? Dr. Morgan?
    Dr. Morgan. Well, I certainly agree with that assessment. I 
would say one other thing first, which is the blackouts that 
most of us experience on an annual basis are not caused by the 
sort of large-scale blackouts that you just described but 
they're caused by, you know, people crashing their truck into a 
utility pole or a branch coming down on a line in a 
thunderstorm or something like that.
    For the big ones that you did discuss, there are obviously 
several things one can do. One needs much better training and 
supervisory controls so that you don't take steps that put the 
system into a vulnerable state. And there's a lot of research 
going on at DOE and elsewhere and within the industry on how to 
provide better control and also how to better train operators. 
Up until recently, it's been really hard to analyze the dynamic 
flows in a power system in real-time. Computers are getting to 
the point that you can get close to doing that. The strategy in 
the past has been think of all the contingencies that could 
override arise, analyze them all and figure out what I ought to 
do in each of those cases, and keep people prepared to move on 
those things. So the answer is, yes, there's a lot that can be 
done and much of it is being done.
    Mr. Grayson. Well, if you had to pick one single thing that 
would make blackouts like the ones that I described, the large-
scale blackouts less likely, one form of research or 
development, what would that be?
    Dr. Morgan. Better supervisory status control, that is 
knowing what--how close to the edge I am and what my 
vulnerabilities are so if an event does--I mean all of these 
things are triggered by some event like, you know, an operator 
making a mistake or an ice storm or a flood or something, but I 
need to know what the status of the system is and have 
operators prepared to back off or do other things to take 
contingency--or to consider contingencies.
    Up until recently we've always used the sort of N minus 1 
rule, that is the rule that if one thing goes, the system ought 
to continue to operate okay. And we're getting sufficiently 
tight in terms of the capacity with which we're stressing the 
system that probably that's not a sufficiently conservative 
rule anymore and so people need to do analysis to figure out 
where they are at and what sorts of failures could cause what 
kinds of problems.
    Mr. Grayson. So are there national federal programs or even 
utility company programs along the lines of what you described 
or is it basically ad hoc at this point?
    Dr. Morgan. No, there are--it's not basically ad hoc. There 
are serious research programs at a number of the national labs 
like PNNL and EPRI and others on the industry side are also 
actively engaged in this sort of work. This is an issue that 
the industry really does understand and is working hard to 
address.
    I might say one other thing, and that is that the sort of 
replacement transformer issue that I mentioned addresses not 
just the kinds of destruction that could happen from terrorism 
or from natural events of the sort that you described but also 
the sort of thing that Dr. Baker talked about. I mean there are 
multiple reasons why one would like to have standby equipment, 
and transformers are just really big and hard to move and 
expensive, and so we ought to be doing better there.
    Mr. Grayson. Thanks. I yield back.
    Chairman Loudermilk. The Chair now recognizes the gentleman 
from Florida, Mr. Posey.
    Mr. Posey. Thank you very much, Mr. Chairman.
    Thank you, witnesses, for appearing today. And, Mr. 
Chairman, I thank you especially for holding this hearing. This 
issue is so vitally important to the national security of our 
country and I think possibly ultimately the survival of our 
species.
    The New York Times had a bestseller for a while. It's 
called ``One Second After'' by William Forstchen. I assume you 
all have read that before?
    Mr. Morgan. No.
    Mr. Posey. Well, my next question was going to be could you 
find any inconsistencies with the reality in the book? The book 
allegedly was written based on a Congressional intelligence 
report on the EMP threat. And it's staggering.
    Mr. Lordan. Would you want me to----
    Mr. Posey. Yes, sir.
    Mr. Lordan. Yeah. Do you want me to answer that----
    Mr. Posey. Yes.
    Mr. Lordan. --question? Okay. So, yeah, it was a novel, and 
so there were liberties taken and they did base this on 
classified information, which I don't have access to. But when 
we analyzed what the impact would be, and this is what we call 
a high-altitude electromagnetic pulse, detonated seven, ten 
miles above the Earth, we know that there were some relays are 
going to be affected but not all. We know that some computers, 
some communication systems are going to be impacted but not 
all. And it is possible and likely that there could be 
blackouts, but then there's a recovery and there's things you 
can do to recover more quickly.
    Mr. Posey. Okay. Dr. Baker mentioned the solar flare that 
we avoided. I think it crossed the path of our orbit about two 
weeks--if we had been about two weeks further ahead, it would 
have been very serious consequences. You talked about it being 
in trillions of dollars. Could you quantify that just in a 
couple of brief sentences, the kind of impact that would have 
had on everyday life?
    Dr. Baker. Well, I think--yes, it was--missed the Earth by 
about one week, about seven days, six or seven days. If it had 
occurred about a week earlier, so--it would have certainly hit 
the Earth. That would have been the kind of scenario that we 
think we would most dread. It would be a huge impact on the 
power grid. It would stand the chance of knocking out a number 
of the large, extremely high-voltage transformers on the 
backbone. We don't know how many, we don't know exactly the 
failure modes, but the $2 trillion really comes from looking at 
if one is without electrical power for weeks or months or 
extending into the timescale of a year or so, that this really 
then starts to be in the trillion of dollars kind of cost.
    Mr. Posey. What kind of damage do you think it would have 
been to our satellite systems?
    Dr. Baker. Well, that's the other component of this, which 
I'm glad to have the chance to respond to here is that it's not 
just the effects on the power grid directly; it's also the 
effects on satellites, the timing that we get from the global 
positioning systems which feeds into the other systems, it's 
the communication, it's all the things that we rely on. If all 
of those start to collapse and they start to collapse in 
sequence, then we are facing I think a kind of a society that 
we haven't seen for decades or 100 years or sent back to very 
primitive kind of conditions.
    Mr. Posey. I commend to you the book ``One Second After''--
--
    Dr. Baker. I will----
    Mr. Posey. --and----
    Dr. Baker. Yes.
    Mr. Posey. The consequence, if it takes out enough 
satellites, you know, you don't have a weather report, you 
don't have a news report, you don't have a cell phone, you 
don't have a laptop----
    Dr. Baker. Absolutely.
    Mr. Posey. --you don't have a car that works, you don't 
have--I mean you're just out of business----
    Dr. Baker. Absolutely.
    Mr. Posey. --and it is very, very, very primitive. And the 
threat is real, as you mentioned. It's incredibly real.
    Dr. Baker. That's right.
    Mr. Posey. Are any of you aware of any technology to more 
or less have a super--for lack of a better term--circuit 
breaker that can detect an EMP threat in advance and shut this 
system down whether it be on a satellite or on a generator? Are 
any of you aware of that?
    Mr. Lordan. I'd say the--if you get hit with an EMP, the 
rise time of that impact is faster than any electronics device 
could respond to, I assert.
    Mr. Posey. Okay.
    Dr. Morgan. A couple of things. We were sort of disparaging 
about the technology in some earlier Soviet fighters until we 
figured out that the reason they were using vacuum tubes rather 
than solid state was precisely to be EMP-resilient.
    We have an annual doctoral qualifying exam in our 
department and we used a 2X Carrington event--Carrington event 
was the largest measured solar mass ejection--as the subject 
for the exam this past year, and the focus was on the 
resilience of emergency communication. You know, if you're 
using fiberoptics and you've hardened stuff at both ends, the 
fiberoptics are going to be resilient to this, so it really is 
a matter of looking carefully across the system for potential 
vulnerabilities. And as you heard in the case of the first 
testimony, if I back off the loading of the transformers, for 
example, so the cores are not saturated, I'm far less likely to 
fry them and I can do other things like capacitive coupling and 
some other----
    Mr. Posey. There is some----
    Dr. Morgan. --so the answer is there are strategies.
    Mr. Posey. There are people who now are working on a high-
speed technology to detect it and super high-speed react to it 
but there just seems to be, believe it or not, no demand for 
it, which kind of amazes me but----
    Dr. Morgan. Well, to just say again what I said before, 
which is to get a widespread EMP from a nuclear device, it has 
to be a high-altitude burst and it--if we have an adversary 
that engages in a high-altitude burst, I think EMP may be the 
least of our problems because I presume it'll be combined with 
a whole lot of surface burst, which will----
    Mr. Posey. Sure.
    Dr. Morgan. I mean only a major nuclear exchange is likely 
to lead us to that point.
    Mr. Posey. Thank you, Mr. Chairman. I'm out of time so 
thank you for your graciousness.
    Chairman Loudermilk. The Chair recognizes the gentleman 
from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair. You know, the purpose of 
this is we're a very connected society obviously, and that 
connectedness is great for comfort, for convenience, for 
efficiency, but it has an obvious downside, which is a 
potential domino effect of it all failing at once, whether it's 
a nuclear device, it's cybersecurity, it's space weather, it's 
just some huge planetary Earth kind of weather thing.
    So, Dr. Baker, I want to start with you real quick and then 
to you, Ms. Bartol, and then I'm going to yield the balance of 
my time to Mr. Takano.
    Given where we are, if you had your wish list, what would 
be the things we could do to predict better and more quickly 
the space weather events you talked about to minimize the 
damage that might come from a big event?
    Dr. Baker. I think what we really need to have is a 24 by 7 
very dedicated kind of program to look at the sun from sort of 
all directions and to be able to, as soon as possible, assess 
whether the disturbances coming from the sun are going to be 
harmful or relatively benign. If we could do that, we would 
then be much better positioned to react appropriately and to 
probably minimize the impacts.
    The difference is that we--right now--light travels at 
186,000 miles per second, 8 minutes warning that something is 
happening on the sun, but the fastest of these events can be at 
Earth in 12 or 14 hours.
    Mr. Perlmutter. And you would suggest that we invest some 
more to avoid what could be----
    Dr. Baker. That's right.
    Mr. Perlmutter. --potentially unbelievable costs
    Dr. Baker. That's right. I think the----
    Mr. Perlmutter. Okay.
    Dr. Baker. --investment in such an observing program would 
be dwarfed by the cost society would face if we don't do those 
things.
    Mr. Perlmutter. Okay. Ms. Bartol, what would you suggest 
that we do today to minimize the potential for cyber attacks 
that bring down the system?
    Ms. Bartol. We need to educate the society about their 
behavior on the internet and educate specifically in the case 
of energy industry the people who work in the utility, from 
executives to people on the ground, boots on the ground, 
especially the small utilities that the Chairman discussed. 
They have one IT guy or maybe a security guy at the same time. 
It's a matter of expertise; it's a matter of knowledge. There 
may be technologies and techniques they might not know. So 
education is huge here.
    Mr. Perlmutter. I yield the balance of my time to the 
gentleman from California.
    Mr. Takano. Dr. Morgan, what are microgrids and would they 
be useful--a useful tool that could be--that could enable 
communities to withstand and recover faster from high-impact 
events?
    Dr. Morgan. A microgrid is a small collection of local 
generators, perhaps combined heat and power systems, which are 
interconnected and then also usually connected to the grid. The 
big difficulty we have with--and so every presentation you go 
to, you'll see--at DOE, at EPRI, and others, you'll see all 
this proliferation of new technology on the demand side, that 
is, on the distribution system side. What those don't typically 
talk about is who's going to own all that stuff. And most U.S. 
States have rules that provide exclusive service territories to 
utilities, which means the only entity that can own one of 
those things is a utility, and pardon my EPRI friends; I've 
advised them a lot--I would not rank the distribution utilities 
as the most innovative firms in the country. And so I think 
there needs to be some strategy to allow small-scale private 
players to get--we've deregulated much of the supply side. We 
need to do a bit more on the demand side to allow small-scale 
players to come in underneath the distribution system to build 
these sorts of systems because they can provide very 
considerable resilience in--for critical social services in the 
event that the large-scale system goes down.
    I'm not talking about getting off the grid. And I'm talking 
about tariffs that are symmetric so they recognize the cost 
that you impose on the big system and vice versa. When the 
United States--when the Congress passed law that said I must--
if I build a generator, the utility must interconnect me, that 
was a federal law and now that's true all across the country. 
On the other hand, if I try to sell some of that power to Dr. 
Baker next door, that's in most States not legal yet, and so I 
don't know if this has got to be solved 50 times for different 
States or if it could be solved once for the nation as a whole 
in the same way that interconnection for single generators was 
solved. But I think it's an issue that would be worth your 
exploring.
    Mr. Takano. Yeah, my time is up. I yield back. Thank you. I 
thank the gentleman from Colorado for yielding.
    Chairman Loudermilk. Thank you. I recognize Mr. 
Rohrabacher----
    Mr. Perlmutter. Mr. Chair, just a second. Did you recognize 
that Dr. Baker was from Colorado?
    Chairman Loudermilk. I believe we did in the very 
beginning, yes.
    Mr. Perlmutter. Okay. Thank you. Thank you. I meant to 
mention that. I'm sorry.
    Chairman Loudermilk. Oh, thank you. I recognize the 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. And, again, Mr. 
Chairman, I appreciate your leadership on this issue. This is 
an issue that is vital to our country's safety and security, 
and frankly, this is the first detailed hearing I've been to on 
it. I congratulate you for stepping up and providing that 
leadership.
    And I'd also like to associate myself with Mr. Takano's 
line of questioning, which was right on target. And--but I 
would like to disassociate myself with Mr. Grayson's line of 
questioning.
    Mr. Grayson. I appreciate that. Feel free to disassociate 
yourself at any time from any questions I ask. I feel good 
about that.
    Mr. Rohrabacher. He wanted me to do that to help him in his 
Senatorial campaign.
    The discussion that we're looking at here is, as far as I 
can see, there's low probability of certain types of 
disruptions but with high-impact, very high-impact, but then we 
have other vulnerabilities that you've outlined that have lower 
impact. Where should our emphasis be? Should it be on this--
basically a solar storm in trying to make sure that we are 
lined up for that and have a few days' notice and then being 
able to turn off our machines and in the meantime to sort of 
minimize the effect, or should we be looking at these various 
things that you're talking about, adding steel so that the 
terrorist squirrels don't get to us?
    Dr. Baker. Let me first say that I think this is a very 
active topic of research trying to understand what lower--you 
know, higher-frequency, lower-impact kind of events are doing 
to our systems. We can--it's very useful for us to think about 
the most extreme events and how we would inure ourselves to 
their effects. If we did that, we'd probably make ourselves 
better for the lower frequent--for the lower-impact events as 
well. But right now I think we don't know exactly where the 
sweet spot is, and investment versus, you know, the cost of 
doing things versus the impact that we might have.
    Mr. Rohrabacher. Well, we just were treated to some 
information about possibilities that utilities and that being 
one of the roadblocks to--and, by the way, it's just not 
utilities; it's also politics in the local area which determine 
what the policies of those utilities will be. Let me just ask 
this. In terms of--aren't we really talking about de-griding 
the country? Isn't that really the long-term concepts? No, 
perhaps we have reached a stage where my colleagues on the 
other side of the aisle have been trying to push me for a long 
time into basically having independent generation of 
electricity by solar power and things such as that, individual 
homes de-grided? Go right ahead, sir.
    Dr. Morgan. I think we're always going to need a grid. I 
think you're right that there will be much more dispersal of 
generation but, you know, the sun doesn't shine at night, and 
at the moment, storage technologies are very expensive, and 
there are some broader reasons as well that you really want to 
have a high-voltage backbone. And the wind doesn't blow all the 
time either. For example, in the Bonneville Power 
Administration some years ago there was a period of ten days 
when not a single wind machine put out a single bit of 
electricity. So you've got to have strategies to deal with 
that.
    On your earlier question, though, what's the appropriate 
balance between smaller-scale stuff and the very large things? 
I mean I think you've got to have a bit of both and you've got 
to figure out how to strike the appropriate balance. You can't 
go off the deep end and put all your energies into worrying 
about the rare events that could cause nationwide or large 
regional blackouts and not worry at all about local and 
smaller-scale stuff of the sort that hurricanes or others can 
do, and so you need a balance.
    There's one other thing I might say on that, and that is, 
given that you don't know which utility is going to get into 
trouble, there is a problem of sort of the commons. I mean no 
single--especially for terrorism, no single utility can really 
justify in economic terms making the investments for something 
like a transformer stockpile. On the other hand, the nation as 
a whole ought to have it because there is a good chance that 
somewhere, sometime we are going to wish we had it.
    Mr. Rohrabacher. Mr. Chairman, let me just note that the 
storage of electricity is a major part of this whole concept of 
how we're going to deal with this. There is a lot of research 
going on right now. There are some people who are working on 
what could be breakthrough technologies in the storage of 
electricity, and this, too, might be an interesting discussion 
for the Committee. Thank you.
    Chairman Loudermilk. Thank you. We'll keep that in 
consideration.
    I now recognize the gentleman from Ohio, Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Again, I agree this is a very, very important topic and I 
appreciate our panel being here with us today.
    Dr. Baker, you know, in 1989 a geomagnetic disturbance 
brought on by a solar weather event caused millions of 
Canadians to lose their power for approximately nine hours. The 
grid in that situation collapsed within 92 seconds of the 
geomagnetic disturbance event. If a similar event occurred 
today almost 30 years later, would there be more of a warning? 
Would we know about it in advance?
    Dr. Baker. I think what would probably be the biggest 
difference between now and 30 years ago is how interconnected--
Congressman Perlmutter mentioned the interconnectedness of 
society. I think that we are much more tightly coupled now. The 
impacts would propagate more--further and I think more rapidly 
and probably more seriously. And so----
    Mr. Johnson. So it could be a more negative impact?
    Dr. Baker. It could be a more negative impact by far I 
believe, and that's one of the things that I guess I've been 
most struck by in my recent examination of these issues is how 
interconnected society is and how interconnected our 
technologies are. We've surrounded ourselves, as we like to 
say, in a cyber electric cocoon that is----
    Mr. Johnson. Sure.
    Dr. Baker. --much more tightly coupled now than it was 30 
years ago.
    Mr. Johnson. Yeah, I share your concern. As a 30-year-plus 
IT professional, I have a great concern about the 
interconnectivity. There's great benefit to it but there's also 
tremendous risk associated with it. So in that vein, is there 
technology available to help us contain or limit the impact and 
should we be looking at that kind of technology?
    Dr. Baker. I think we should be going into this with our 
eyes much more open than they are. I think many, many times we 
develop technologies in one sector without thinking about how 
they relate to other sectors and how dependent we become. 
Again, the timing signals that come from the global positioning 
system are playing into many other kind of technologies, and we 
at least should be aware of that. I believe we ought to be much 
more careful about what the interconnectedness that we build 
into our systems and--now and into the future.
    Mr. Johnson. Well, yeah, I agree with you. It certainly 
gives us pause to stop and think. You know, we should do a 
risk-benefit analysis to determine whether or not the risk of a 
particular----
    Dr. Baker. Right.
    Mr. Johnson. --system interconnectivity is an issue or not.
    How often do other events affect everyday life like high-
frequency radio communications, our space travelers' health, 
satellite function, and aircraft electronic systems?
    Dr. Baker. I think when you think about the broad sweep of 
space weather and all those dimensions that you're talking 
about, it probably affects us, you know, all the time, and on a 
daily basis there can be things. But when the sun becomes more 
active especially, then I think that this becomes something 
that can affect all those sectors and sometimes simultaneously.
    So as we talked about before, there's a lot of focus on the 
most extreme events and the rarity of those extreme events, but 
as we build these more capable systems, the threshold for 
effective search go down and I think it becomes not a matter of 
every ten years or every five years, but it probably becomes 
almost a daily occurrence that someone somewhere is going to be 
suffering the effects of the environment on their technological 
system.
    Mr. Johnson. Yeah. Well, I mean we saw things like the 
Carrington event back in the early 1900s or earlier----
    Dr. Baker. Yes.
    Mr. Johnson. --1900s. Is there technology available today 
to increase the warning time of those types of events?
    Dr. Baker. Yes. As we talked about, by observing the sun 
that we could probably have an idea that a solar storm is 
coming our way. That Carrington event occurred in 1860. The 
internet of the Victorian age was the telegraph system. That 
was about the only technology that could really sense the 
effects of this.
    Mr. Johnson. Has anything of the magnitude of the 
Carrington event occurred since then?
    Dr. Baker. I mentioned in my testimony that there was an 
event that occurred in 2012 that was probably two or three 
times stronger than the Carrington event, that it missed the 
Earth by about a week or so, that had that occurred, I had 
contended--I guess we can debate this point--we'd probably 
still be picking up the pieces had that event had occurred a 
week earlier.
    Mr. Johnson. Is that right? Wow. How concerned are you 
about an extreme space weather event taking place during our 
lifetime? And you just said that, 2012, a couple of weeks' 
difference and we'd be still picking up the pieces. What do you 
mean by picking up the pieces? What would have been the 
potential implications of that?
    Dr. Baker. Well, as Dr. Morgan talked about, we don't have 
a lot of transformers lying around ready to reinstall into our 
power grid. We don't have a lot of the kinds of backup systems 
and so on ready----
    Mr. Johnson. I don't know. In Marietta, Ohio, the squirrels 
knockout transformers all the time and----
    Dr. Baker. Yeah, that's right. Yeah. But I believe that, 
again, if we think about the worst kind of case scenario and 
how this would propagate through not only the power grid but 
other aspects of technology, I mean that we would probably 
still be trying to recover fully from the effects of those 
kinds of--you know, the incidents of events.
    Mr. Johnson. Well, it's amazing how many things like this 
are out there that we--that--I daresay that many people have no 
clue how precipitously close we are to a disaster of 
magnanimous proportions and we don't even know about it. It's 
happening almost right under our noses and we don't know it.
    Dr. Baker. I think that's what's most alarming is the 
vulnerability that we have and how unaware we typically are 
about that, yes.
    Mr. Johnson. Okay. All right. Well, Mr. Chairman, I've 
exceeded my time. I yield back.
    Chairman Loudermilk. Well, this is a very important topic, 
and so we also have a gentleman from California, Mr. Takano, 
who is not a member of the subcommittee, but we appreciate his 
interest in being here. He's a member of the committee, and so 
I recognize you for the final five minutes.
    Mr. Takano. Thank you, Mr. Chairman. I thank my colleague 
from California, Mr. Rohrabacher, for commenting--saying 
something about the topic I brought up, the line of 
questioning.
    Dr. Morgan, am I to conclude that--with my question 
regarding microgrids that--and the--your comment about the 
emphasis--the heretofore emphasis on distribution and not 
enough attention maybe on the other side of the equation on 
diversifying the generation----
    Dr. Morgan. The reverse?
    Mr. Takano. Excuse me. Go ahead. Clarify what you're----
    Dr. Morgan. The reverse. We have restructured the supply 
side. We have not done too much to restructure the demand side, 
that is the distribution system and the microgrids that might 
be down under the distribution.
    Mr. Takano. Thank you. Thank you for clarifying. Okay.
    So my question is--and I want to follow up on what Mr. 
Rohrabacher suggested at the end of his comments about battery 
technology and--where--how could the federal government--or 
what would be the appropriate role in terms of emphasizing more 
research in this area? There's a lot of breakthrough. I just 
recently visited a vanadium battery company. How could this 
be--is this a potential game-changer if we were to make 
breakthroughs in various types of battery technology and how 
this would help alleviate our vulnerability?
    Dr. Morgan. Yeah, battery technology is important, and of 
course in California there's actually mandates to try to get 
some more batteries installed to begin to get practice and to 
drive things down the experience curve. The--I mean and there 
are a bunch of emerging new technologies. Jay Whitacre, for 
example, on my faculty has built a company called Aquion, which 
has a very nontoxic battery that's basically you can drink the 
electrolyte that could be--yeah, it really is. It's just a----
    Mr. Perlmutter. I'll stick to beer.
    Dr. Morgan. Yeah. But--and the DOE is--has some major 
research in that space. Actually, if you allow me 30 seconds to 
come back to the earlier line of questioning----
    Mr. Takano. Sure.
    Dr. Morgan. --with respect to interconnectedness, solar 
mass ejections is--are a high-latitude event. That is you'll 
notice that all of the examples were at, you know, in Canada or 
in South Africa, but if you have an event like that and it 
causes a big disruption, the power system is interconnected, so 
another thing you can do to limit the propagation of a problem 
is to be concerned about how do you avoid propagating 
disturbances if you take out, say, the power system across the 
northern tier of the United States and Canada? How do you avoid 
that then subsequently propagating through the rest of the 
Eastern interconnect or the Western interconnect? More likely, 
the Eastern interconnect given the geology. I'm sorry. Go 
ahead.
    Mr. Takano. What can we do more to--I know the DOE supports 
the battery research, but could we be doing more? And is this a 
wise place to kind of do more--provide more support?
    Dr. Morgan. Well, I mean I mentioned Jay Whitacre. That 
work has largely been supported with venture monies, and so you 
want to make sure that you continue to provide a hospitable 
environment for those sorts of investments. But I think almost 
anybody today who has a really good battery idea and has begun 
to demonstrate it in the laboratory isn't going to have a lot 
of problems finding substantial capital to build a firm.
    Mr. Takano. Well, great. But related to the entire topic of 
today's hearing, better battery storage, energy storage 
technologies could also be part of a strategy to address----
    Dr. Morgan. Yes. I mean it's clear there is no one-size-
fits-all. As we restructure the system, we're going to need a 
portfolio of strategies and technologies, and support for the 
critical issues all across that space are important.
    The Office of Electricity at the DOE has, for reasons I've 
never quite understood, long been rather neglected and has been 
modestly funded, and so that would be one place to start. And I 
don't know why it is, but OMB has always often sort of 
neglected it as well. I think that's a mistake and I think that 
this committee maybe ought to explore that or these committees 
ought to maybe--subcommittees should explore it a bit more.
    Mr. Takano. Mr. Chairman, I would endorse that suggestion, 
also my colleague's suggestion, Mr. Rohrabacher's suggestion 
about more work on what's going on in the private sector and 
the public sector in battery storage and energy storage 
technology.
    Chairman Loudermilk. I thank the gentleman. And I mean this 
needs to be an ongoing discussion that we're having.
    And again, I thank the witnesses for taking time here today 
and for the Members being with us. We do have another briefing 
to get to regarding energy and the threats that we're facing.
    So, as we've seen, as America's aging electric grid 
transitions to the smart grid, we must make sure that we are 
effectively protecting it, and as we've seen, we've got a long 
way to go. And as I've heard today, while the grid has been 
resilient, vulnerabilities remain. Given the importance of the 
electric grid in everyday life, addressing these 
vulnerabilities is paramount to ensuring the safety and 
security of our nation.
    To the Members, the record will remain open for two weeks 
for additional comments and written questions from Members. The 
witnesses are excused and the hearing is adjourned. Again, 
thank you.
    [Whereupon, at 11:22 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
